IN THE

Supreme Court of the United States

MARK STANFORD KATZMAN,
Petitioner;
v.
THE PEOPLE OF THE STATE OF MICHIGAN,
Respondent

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that this petition for a writ of
certiorari contains 3996 words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the above is true and correct.

Mbyte’ Y2s/200

Noel Erinjeri date

Counsel of Record
